Orrick, Herrington & Sutcliffe LLP

1152 15th Street NW
Washington, DC 20005
+1-202-339-8400

December 24, 2019

www.orrick.com

Via Electronic Filing and Hand Delivery

E mbostwick@orrick.com
D +1-202-339-8483

Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Melanie L. Bostwick

United States v. Riley Briones, Jr., No. 19-720

Dear Mr. Harris:
I am counsel of record for Respondent Riley Briones, Jr. in the abovecaptioned matter. Pursuant to Rule 30.4, I am writing to request a 30-day
extension of time to file Respondent’s brief in opposition to certiorari.
The petition for certiorari was docketed on December 6, 2019, after Petitioner
received two 30-day extensions. The deadline for Respondent to oppose the petition
is January 6, 2020. If the requested extension of time is granted, Respondent’s brief
in opposition would be due on February 5, 2020. Counsel of record for Petitioner
has consented to this request for extension of time.
Respondent respectfully requests this extension for several reasons. First,
the associate previously working on this case is on parental leave and another
associate will need to familiarize herself with the case. Second, the additional time
is required due to pre-existing obligations in other matters. Finally, the timing of
the holidays and concomitant family commitments pose an additional strain.
Thank you in advance for your consideration of this matter.
Respectfully submitted,
/s/ Melanie L. Bostwick
Melanie L. Bostwick
cc:

Counsel for Petitioner (via overnight mail and email)

